<html>
<title> - ACCESS DELAYED: FIXING THE SECURITY CLEARANCE PROCESS -- PART II</title>
<body><pre>[Senate Hearing 109-581]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-581

    ACCESS DELAYED: FIXING THE SECURITY CLEARANCE PROCESS -- PART II

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2005

                               __________

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
24-930 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
NORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                        Tara Baird, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................    10

                               WITNESSES
                      Wednesday, November 9, 2005

Linda M. Springer, Director, U.S. Office of Personnel Management, 
  accompanied by Kathy Dillaman, Associate Director, Federal 
  Investigative Services Division, U.S. Office of Personnel 
  Management.....................................................     3
Clay Johnson, III, Deputy Director for Management, U.S. Office of 
  Management and Budget..........................................     5
Derek B. Stewart, Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     7

                     Alphabetical List of Witnesses

Johnson, Clay, III:
    Testimony....................................................     5
    Prepared statement...........................................    30
Springer, Linda M.:
    Testimony....................................................     3
    Prepared statement...........................................    23
Stewart, Derek B.:
    Testimony....................................................     7
    Prepared statement...........................................    34

                                APPENDIX

Questions and responses for the Record from:
    Ms. Springer.................................................    49
    Mr. Johnson..................................................    55
    Mr. Stewart..................................................    57
``Plan for Improving the Personnel Security Clearance Process,'' 
  November 2005..................................................    64

 
    ACCESS DELAYED: FIXING THE SECURITY CLEARANCE PROCESS -- PART II

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2005

                                     U.S. Senate,  
                    Oversight of Government Management,    
                           the Federal Workforce, and the  
                         District of Columbia Subcommittee,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
room 342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Akaka.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The meeting will please come to order. 
Good afternoon and thank you for coming.
    Today, our Subcommittee will hold its second hearing on the 
Federal Government's security clearance process. Today's 
hearing on this issue is titled, ``Access Delayed: Fixing the 
Security Clearance Process--Part II.''
    I know that this issue must seem mundane to most people, 
and I doubt that it resonates with the general public. However, 
a broken security clearance process has serious consequences 
for the Federal Government and the Nation. Highly-skilled 
employees may sit idly by for months, waiting for their 
security clearances to be finalized, while important national 
security work is not being done. I have no doubt that many 
people are dissuaded by the long process and seek opportunities 
elsewhere, thus denying the government of many hard working and 
smart people.
    Finally, I understand that government employees who already 
hold security clearances may nevertheless face lengthy 
reinvestigations while seeking jobs in other agencies that 
require clearances. I can only imagine how frustrating this 
must be.
    Let there be no doubt that a broken security clearance 
process has a negative impact on those seeking to serve, and on 
the overall safety of our Nation.
    Today's hearing will examine two critical components of 
reforming the security clearance process. First, we are going 
to review Executive Order 13381, issued by President Bush, and 
the steps that the Office of Management and Budget is taking to 
implement the policy. Second, we will examine the Office of 
Personnel Management's strategic plan to address the 
longstanding backlog of security clearance investigations, 
which was released on Monday evening.
    On June 27, 2005, one day prior to our first Subcommittee 
hearing on security clearances, the President issued the 
Executive Order in compliance with Title III of the 
Intelligence Reform and Terrorism Prevention Act of 2004. The 
underlying policy goal of this Executive Order was to establish 
uniform, centralized, efficient, effective, timely, and 
reciprocal means of determining eligibility for the access to 
classified information.
    I look forward to Mr. Johnson's testimony this afternoon, 
as he is the Administration's point person for implementing the 
Executive Order. It has been almost 4\1/2\ months since the 
Executive Order was issued and I am anxious to learn what steps 
you have taken to ensure it is implemented in a consistent 
manner throughout the Federal Government.
    Additionally, we discussed the transfer of investigative 
functions from the Department of Defense to OPM and what impact 
that shift will have on the government's ability to investigate 
and adjudicate security clearances in a thorough and 
expeditious manner. At the hearing, Kathy Dillaman, OPM's 
Deputy Associate Director of the Center for Investigative 
Services, said the agency would provide their plan to improve 
the security clearance process to Congress by the end of 
October. Even though the submission was a week late, I commend 
OMB and OPM for working together on the strategic plan. After 
our discussions here today, I hope that we will all have a 
clearer understanding of the strategies, measures, and 
benchmarks the Executive Branch will use to track the success 
of the security program.
    Central to the successful implementation of the strategic 
plan is the leadership from the Federal agencies in charge of 
the security clearance process. To this end, I was pleased to 
learn that OPM Director Springer recently promoted Ms. Dillaman 
to an Associate Director for the newly-designated Federal 
Investigative Service Division within OPM. By elevating Ms. 
Dillaman to that position, OPM is sending a strong message that 
they are serious about enhancing their security clearance 
investigative procedures.
    In addition, I understand that Mr. Johnson has been 
personally involved in the drafting of the strategic plan. Mr. 
Johnson, thank you for your efforts and for ensuring that the 
plan was developed in a collaborative manner with input from 
all agency stakeholders. That is terrific.
    We all share a common goal of fixing a process that has 
serious implications on the ability of the Federal Government's 
national security workforce to get the job done. Qualified 
civilian and contract employees are waiting too long for 
security clearances. It is both unreasonable and unacceptable 
for civilian employees to wait an average of 274 days for a 
background investigation to be completed. Even worse, as noted 
by GAO, it was taking DOD an average of 375 days to process 
clearances for private sector contracting positions back in 
2003.
    However, the processing time for security clearances is 
only part of the problem. According to the OPM strategic plan, 
there are approximately 232,000 security clearances pending 
approval. When one considers the sheer size of the backlog 
coupled with the time it takes to conduct an investigation, it 
is apparent that immediate improvements must be made to the 
security clearance process to get the workload down to more 
acceptable levels.
    Fortunately, when examining the OPM strategic plan, it is 
evident that bold goals have been outlined for improving the 
timeliness of the investigation, which in turn should help 
minimize the backlog. For example, OPM intends to complete 80 
percent of their investigations within 90 days by the end of 
calendar year 2006, thereby meeting the parameters outlined in 
the Intelligence Reform Act. An improvement of this magnitude 
will require a concerted effort from the OPM investigative 
workforce.
    Therefore, I am interested to hear from Director Springer 
on what steps OPM will take to ensure that they have the 
workforce with the requisite skills to streamline and improve 
the security process. I would also like to know if there is 
anything specific that Congress can do to help in your 
endeavors.
    Senator Akaka and I will work together with the 
Administration and GAO on this matter. We hope that our 
collective efforts will improve the security clearance process 
so that it will be removed from the GAO high-risk list within a 
reasonable time frame. Also, Mr. Stewart, I am interested in 
your assessment of the OPM strategic plan to see if you believe 
it lays the foundation for removing this issue from the high-
risk list.
    I would like to thank our witnesses for their participation 
this afternoon. I look forward to your testimony. 
Unfortunately, Senator Akaka has a conflict. Though, I hear 
from his staff he is going to try and make time to attend. We 
have three great witnesses today and I want you to know that 
your entire statements will be entered into the record. I now 
ask that you please stand and be sworn in, as is the custom of 
the Subcommittee.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Ms. Springer. I do.
    Mr. Johnson. I do.
    Mr. Stewart. I do.
    Senator Voinovich. Our witnesses include Linda Springer, 
the Director of the Office of Personnel Management. Linda, it 
is great to see you. Clay Johnson, I am glad that you are here, 
and Derek Stewart, thank you for coming today. Linda, we will 
start with you.

  TESTIMONY OF LINDA M. SPRINGER,\1\ DIRECTOR, U.S. OFFICE OF 
PERSONNEL MANAGEMENT; ACCOMPANIED BY KATHY DILLAMAN, ASSOCIATE 
DIRECTOR, FEDERAL INVESTIGATIVE SERVICES DIVISION, U.S. OFFICE 
                    OF PERSONNEL MANAGEMENT

    Ms. Springer. Thank you, Mr. Chairman. It is always good to 
be back to visit with you on these issues. We appreciate the 
opportunity to testify today about OPM's efforts to expedite 
security clearance processes and specifically our efforts to 
reduce the current backlog.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Springer appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    As you know, OPM is now responsible for ensuring that, each 
year, approximately 1.4 million Federal employees and 
contractors meet suitability and/or security requirements so 
that they can serve in the Federal Government. By the end of 
2006, OPM is required by the Intelligence Reform and Terrorism 
Protection Act of 2004, as you stated, to reduce investigations 
processing time to 90 days. We intend to meet that goal by 
adhering to the strategy laid out in the ``Plan for Improving 
the Personnel Security Clearance Process,'' \1\ which was 
jointly prepared by OPM, the Office of Management and Budget, 
and major clearance-granting agencies across the government.
---------------------------------------------------------------------------
    \1\ ``Plan for Improving the Personnel Security Clearance 
Process,'' November 2005 appears in the Appendix on page 00.
---------------------------------------------------------------------------
    Our last update to you was at the June 28, 2005, hearing on 
this issue. Since then, we have worked hard with OMB to 
complete an analysis of our overall process and proposed 
performance goals and milestones that could be measured with 
data available from OPM's automated processing system. We have 
also been working with OMB and senior representatives from the 
intelligence community, as well as the Departments of Defense 
and Homeland Security and others, to develop an overall ``Plan 
for Improving the Security Clearance Process.'' We have also 
worked together to build a consensus about those performance 
goals and the action items which we will be measuring to 
improve. We assure you that we are meeting our timelines and 
goals.
    Meanwhile, some specific actions that we have taken are in 
the areas of assisting agencies in improving the forecasting of 
their workload. That has been a challenge for them. We collect 
quarterly data, comparing agencies' annual workload projections 
with their actual requests, and we are then able to enlighten 
them, so that they can better project their upcoming workload. 
That will help us with our staffing.
    We have also been increasing the amount of staff that are 
devoted to background investigations. We have reached levels 
now that we think will help us to get through not only our 
current workloads, but also the backlogs.
    We have also implemented an automated process for 
collecting the subjects' background information electronically, 
rather than through a paper-based format. This new system is 
used by agency employees, who are seeking clearances, to submit 
their background investigation. Since its implementation, that 
system has been able to improve our timelines and our accuracy 
for investigations. Electronic submissions reduce the amount of 
time applicants spend completing forms, and those forms are 
more accurate, when done through the automated process versus 
the manual.
    During June of this year, about 370 investigation requests 
were used by the new system. By October, we were up to over 
4,200 per week, and that success rate in that greater 
utilization is helping us in making a noticeable impact on our 
timeliness.
    Investigation time has been reduced in all levels of 
clearance. For example, the investigations process related to 
top secret clearances is a particularly important and sensitive 
program. When OPM was delegated this authority in February 
2005, there were 72,000 investigations in process. As of 
October, that number has gone down to 54,000. So we have a ways 
to go, but I think we are demonstrating that we put a good down 
payment on making a dent in the backlog.
    In June, OPM reported that its goal was to average 35 days 
or less for the priority initial clearance investigations by 
October 1 of this year. In October, our Federal and contractor 
field staff completed all required subject and source 
interviews and advance results to the agencies in an average of 
34 days for over 890 priority investigations.
    To ensure our processes are successful, OPM continues to 
measure investigation timeliness, including the overall 
required to get field coverage and information from key third 
parties at the national, State, and local government agencies. 
That is a critical dependency for OPM in meeting our 90-day 
goal under the Act.
    To summarize, OPM is making significant progress. We have 
worked with other agencies and OMB in the development of 
reasonable goals and targets and we are working to meet them by 
measuring success and making procedural changes. We are using 
greater automation. We are hiring additional people. And we are 
on track to meet the goal of the 90 days within of receipt by 
the end of calendar year 2006.
    Mr. Chairman, that concludes my remarks and I would be glad 
to take your questions.
    Senator Voinovich. Thank you very much. Mr. Johnson.

    TESTIMONY OF CLAY JOHNSON, III,\1\ DEPUTY DIRECTOR FOR 
        MANAGEMENT, U.S. OFFICE OF MANAGEMENT AND BUDGET

    Mr. Johnson. Mr. Chairman, thank you for inviting me up 
here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 30.
---------------------------------------------------------------------------
    When OMB was designated the lead agency and I was 
designated by Director Bolton to be the point person on this, 
we formed what we called a Security Clearance Oversight 
Committee to guide this effort. On that committee, we have 
Kathy Dillaman, representing OPM, and we have the seven largest 
users of security clearances--Defense, State, Homeland 
Security, Justice, Energy, Commerce, and Transportation, seven 
agencies. We are focusing on the non-DNI intelligence world, 
which is about 10 percent of the total.
    We are focusing on the part where all the investigative 
work is done by OPM. When we get that up to full speed, then we 
will bring the other 10 percent in; using the same 
methodologies and the same metrics. So, that is why those seven 
agencies are the ones involved. We also have representatives 
from the National Archives, because they have been working on 
this issue for years, and we have representatives from the 
National Security Council, because they have worked on it.
    We also have a representative from the Director of National 
Intelligence because we want to make sure that whatever we set 
up for the non-DNI world, that it will be compatible with the 
way they envision running their world. We are going to use the 
same metrics, the same levels of accountability, the same 
performance standard.
    So we have met three times, end of August, end of 
September, and then just last Friday. We have had two 
committees, one headed up by the National Archives person that 
looked at the whole issue of reciprocity, and a representative 
from every one of those seven agencies plus the DNI 
representative were on that. They have done fabulous work to 
clarify what we have to do to have a functional granting of 
reciprocity with regard to security clearances.
    We had another committee that Ms. Dillaman headed up that 
looked at what are our standards across the board. What our 
adjudication standards are, what should our delivery of 
security clearance request forms be to OPM, and what should our 
investigative turn-around time standards be, and so forth? She 
and representatives from all the agencies have been working on 
that plan, which was delivered Monday night, and which you have 
seen.
    I am highly confident that we will accomplish the goals 
that have been laid out for the security clearance process in 
the Intel bill. There is lots and lots of clarity. We have a 
very clear understanding via the Intel bill of what the goals 
and time frames are, what we are supposed to do, and by when. 
It is very clear what each agency has to do to meet its overall 
goals, what they have to do in terms of delivering accurate 
information to OPM to launch the investigative part of it and 
then what kind of turn-around time they have for the 
adjudication part of it, and it is very clear what OPM has to 
do. These have all been mutually agreed to by these seven 
agencies plus the DNI.
    The agencies have, or soon will have, detailed action plans 
for getting their adjudication turn-around times up to 
satisfactory levels. I think it is 80 percent within 30 days. 
Some of them will be able to do that very quickly. Some will 
have to hire many more adjudicators, or train many more 
adjudicators, so that the action plan called for is different 
for each agency.
    There is a lot of performance information. Attached to the 
plan are some of the metrics that we envisioned using to hold 
ourselves accountable. Everything that moves in this process 
will be measured, so there is lots and lots of performance 
information that we have to manage ourselves with. There is a 
very strong commitment to do what we say we are going to do.
    One of the things I have been really pleased by is how 
``leaning forward'' every representative, from every agency, 
is. We know this system is broke. We know there is no law of 
physics that needs to be violated to unbreak this system. We 
just need to be very clear about what needs to be done and then 
go do it. There is a very strong commitment to hold ourselves 
accountable. It is not OMB holding the rest of the world 
accountable, but it is really the security clearance world 
holding itself accountable for having a functional system.
    There is a tremendous can-do attitude. We all know we can 
and will reform this process and we are all--if I do say so 
myself--I think it is a shared sentiment--very proud to be 
working on it because we know this has been broken for a very 
long time and our group is going to be the one that fixes it.
    Senator Voinovich. Thank you. Mr. Stewart.

      TESTIMONY OF DEREK B. STEWART,\1\ DIRECTOR, DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Stewart. Mr. Chairman, we are pleased to be here today 
to discuss the government's plan to improve the security 
clearance process and, in particular, we focused on DOD's 
personnel security program. We want to thank you, Mr. Chairman, 
for your continued focus on this critical issue. We really do 
appreciate your attention to this matter.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stewart appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    When I testified before this Subcommittee in June, I made 
several points, and I would just like to review quickly three 
of them. I told you in June that GAO declared DOD's security 
clearance program as high-risk due primarily to three things: 
Longstanding delays in completing investigations, a growing 
backlog, and no effective method to estimate total workload 
requirements.
    I also told you that GAO viewed the problems with DOD's 
program as a national security matter because DOD has about two 
million clearances and is responsible for the clearances of 
contract personnel in 22 other Federal departments and 
agencies.
    And the third point I made before this Subcommittee was 
that DOD's investigative function, when transferred to OPM in 
February, was not a panacea that would fix all the problems.
    Well, today, Mr. Chairman, I sit before you almost 4\1/2\ 
months later and I am pleased to tell you that based on our 
review of the government's plan, we think that the plan 
represents an important step forward and will address some of 
the longstanding concerns that we raised at the June hearing.
    One very positive feature of the plan is the numerous 
metrics. You just heard Mr. Johnson say, anything that moves, 
we can measure it, and that is true. There are numerous metrics 
to help monitor the timeliness of the clearance process, 
statistics on how long the process takes for investigations, 
the various types of investigations, the amount of time needed 
to determine clearance eligibility, and on and on and on. These 
are all very good metrics that will help keep the government on 
track. We are very pleased to see that.
    On the other hand, our review showed that there are a few 
elements of the plan that are less comprehensive than those 
found in, let us say, a fully-developed plan. To illustrate 
this point, I will cite just three examples. We believe that 
the plan would benefit from more details on the resources 
required to accomplish the plan's objectives.
    Mr. Chairman, in June, I remember you said directly to Ms. 
Dillaman, I want to know if you don't have the resources you 
need to get the job done. So I know that you know that is a 
critical point.
    The second thing that we think the plan would benefit from 
more of is more focus on monitoring and improving the quality 
of the security clearance process. The primary metric in the 
plan for measuring the quality of the investigations is the 
percentage of investigations returned due to incomplete case 
files. We do not believe that this metric, which is essentially 
rework, is by itself a valid indicator of quality.
    And last, the plan requires agencies to improve the 
accuracy of their workload projections to be within 5 percent 
of their actual demand, but it does not establish interim 
milestones for achieving that, or a target completion date for 
when that requirement has to be met.
    As I noted earlier in my June testimony, DOD's inability to 
estimate its workload requirement was a major contributing 
factor that led to GAO's high-risk designation, because they 
could not accurately estimate their workload requirements. We 
cannot emphasize enough that the accurate workload projections 
will heavily influence the success or failure of the 
government's plan.
    In closing, Mr. Chairman, I would repeat that we are 
encouraged by the high level of commitment by Mr. Johnson and 
his staff at OMB in taking a lead to develop this plan. This is 
a positive step in the right direction. And again, Mr. 
Chairman, we appreciate your attention and the Subcommittee's 
attention to this critical matter. This concludes my prepared 
remarks. I will be happy to take your questions, sir.
    Senator Voinovich. Thank you very much.
    The first question that I have is in regards to resources. 
Ms. Springer and Mr. Johnson, in the 2006 and the 2007 budget 
that the Administration is putting together, do they include 
the funding to provide people and resources to get the job 
done.
    Ms. Springer. We think that the 2007 budget, as well as the 
2006 budget, Mr. Chairman, are set in a way that we can support 
the number of people we need to hire. That includes contractors 
as well as permanent staff.
    One of the challenges that we have is that it takes about a 
year or so for an investigator to become fully productive, up 
to the level that they will ultimately achieve. So the levels 
of staffing that we have budgeted for will allow us to bring 
on--actually, I don't want to say over-hire, but to bring on 
enough people to compensate for the fact that there is that 
learning curve. So we are comfortable that the amount that is 
in the budget will allow us to do that.
    Senator Voinovich. In terms of retirement, succession, and 
competency, do you feel that you have this under control?
    Ms. Springer. We think we do, and obviously, as you 
mentioned, I have elevated Ms. Dillaman up to the point of 
being a direct reporter of mine so I am personally involved in 
reviewing that. But we have anticipated a normal termination 
and attrition and we understand that the turnover levels of 
contractors are different than for permanent staff, so we have 
taken all that into account.
    Senator Voinovich. Mr. Johnson.
    Mr. Johnson. We had the OPM review for the 2007 budget the 
other day and I was asking about this, what resources were 
needed, and I think it is fee-for-service, agencies requesting 
clearances pay OPM for their services, that is where they get 
their money. It is not an appropriated amount. It is tied 
directly to the level of work they do. So the money is there 
and the question is managing the cost. The big challenge is not 
where do you get the revenue to cover it, but managing the cost 
so that the productivities and the retirement and so forth and 
the competency levels are what we need to do to achieve the 
goals.
    Senator Voinovich. The reason I am asking the question is 
that you have many other things that are on your plate.
    Ms. Springer. A few.
    Senator Voinovich. One of which is the pay-for-performance 
programs. I want to make sure that we are not shifting money 
around. I want to be sure that you have the budget and 
resources to carry out this task. I want to make sure you have 
the wherewithal to get the job done.
    Ms. Springer. Right.
    Senator Voinovich. In 2004, GAO noted that OPM's primary 
contract was hiring around 100 investigators a month and at the 
same time was losing around 70 employees. However, during the 
last hearing, Ms. Dillaman indicated that the primary 
contractor turnover was down to 18 percent. Is this still the 
case? In addition, your plan mentions that OPM plans to promote 
a redistribution of staff between the companies currently under 
contract to better position a broad base of companies to deal 
with the unanticipated workload changes.
    I would be interested in knowing, how are your private 
contractors doing?
    Ms. Springer. I would like to answer that and then maybe, 
if I could, ask Ms. Dillaman, if that would be all right, if 
she would----
    Senator Voinovich. Yes, that would be fine.
    Ms. Springer. One of the things that we are doing with our 
contractors is to have a better segregation of duties, if you 
will, so that, for example, when we have quality assurance 
reviews and quality control, that we have got a contractor that 
is independent enough of the process to be able to review what 
another contractor is doing.
    So one of the things that we have observed is that we 
needed a better segregation of duties, if you will, to have 
that right assurance. So bringing on additional contractors was 
partly to address that particular situation, so we get a better 
assurance over that result.
    As far as the 18 percent turnover rate, I think that is 
probably a typical rate. Actually, it may even be a little low, 
but I am going to ask Ms. Dillaman if she would respond.
    Senator Voinovich. Ms. Dillaman, would you stand so I can 
swear you in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Ms. Dillaman. I do.
    Senator Voinovich. Thank you.
    Ms. Dillaman. And yes, Mr. Chairman, the turnover has 
stabilized. It is remaining constant. We have redistributed the 
resources. Today, the five new contracts that OPM has let has 
about 1,200 resources of the 6,600 contractors and there will 
be a continued redistribution of those resources, so we are 
right on target with what we projected in June.
    Senator Voinovich. Do you have the people to monitor what 
the contractors are doing?
    Ms. Dillaman. Absolutely.
    Senator Voinovich. That is good. What input did you get 
from the private sector in terms of putting your plan together, 
Mr. Johnson?
    Mr. Johnson. We wanted to make some progress on the plan 
before we met with them, so we met with them first October 18, 
with representatives from a number of companies. We have 
another meeting Monday afternoon to talk to them, and we have 
laid out for them the kind of plan we were developing, our 
thinking about reciprocity, the kind of performance measures we 
were developing, and got their initial response. We will do the 
same thing, but with the real plan, on Monday. The feedback 
they have given us is they have let us know loud and clear, 
which we knew already, that this is very important for them.
    We understand we need to create a mechanism whereby they 
can communicate to us if it is not working from their 
standpoint but have a mechanism that doesn't require them to go 
to the hand that is feeding them to complain about how their 
security clearance process isn't working. So we are going to 
set that up so they can go to a third party to let us know 
whether it is working or not----
    Senator Voinovich. So in other words, if they have a 
problem, under the plan, they could come to you and say----
    Mr. Johnson. Right.
    Senator Voinovich [continuing]. This isn't working the way 
we want it to. So you did get their input on how they thought 
the process could be improved?
    Mr. Johnson. Well, again, they have asked for feedback 
mechanisms and they asked to be kept informed and they 
encourage us to do it sooner rather than later. I think they 
were very pleased with the seriousness of it and the commitment 
and the method to the madness and on the measures we were going 
to have, and the Intel bill goals are what they are and they 
understand we are committed to achieving those goals and are 
highly confident that we will be able to do so.
    Senator Voinovich. OK. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Let me welcome the panelists. It is good to see all of you, 
and I regret that I missed your testimony.
    Mr. Chairman, I would like to thank you for your leadership 
in seeking to reduce the number of government programs that are 
on GAO's high-risk list. What we are doing in this 
Subcommittee, examining problems and inefficiencies, is really 
having an effect.
    I was late because I was coming from an Armed Services 
Readiness Subcommittee hearing where Chairman Ensign and I 
heard testimony from Under Secretary Ken Krieg who also 
testified at this Subcommittee's hearing on DOD logistics last 
month. We also had DOD Comptroller Tina Jonas, as well as 
Randolph Hite of GAO there. At the SASC hearing, the Secretary 
spoke of the successful collaboration he has with OMB and GAO 
in developing plans to reduce the number of DOD programs on the 
high-risk list. This ties in with our concern here today.
    Mr. Chairman, we are making good progress on the high-risk 
list, and I am pleased that the Administration, at the highest 
levels, is involved in the process. Mr. Chairman, I want to 
thank you for holding this hearing. If I may go to one 
question, we are coming to a vote.
    Senator Voinovich. Yes, why don't you go ahead.
    Senator Akaka. All right.
    Senator Voinovich. We have got some time left. I am going 
to try and see if we can't run this until about the end, and 
then we will leave and try and cast the second vote, because 
there are two votes, I think, if it is all right with you.
    Senator Akaka. Mr. Johnson, thank you for your approach to 
addressing the challenge. I can see that the OPM plan provides 
certain goals and milestones. Although I did not expect to see 
details on funding the plan, I know that meeting the plan's 
metrics will require significant funds for programs and other 
personnel services. Some of my questions for Secretary Kreig 
were along these lines, too.
    My question to you is, do you or Director Springer have any 
preliminary figures on how much money will be needed to reach 
the goals of the plan, especially in the area of information 
technology needs?
    Ms. Springer. Senator, we don't have a number to give you 
right now. We could look into it. I can say that for the next 
year, the next budget cycle and the way this is structured, the 
way our income or our money comes in to fund these things, that 
we are well-funded to be able to achieve next year's goals. But 
looking long-term, particularly for IT, we would have to get 
back to you on that. We will do that.
    Mr. Johnson. But the money that funds their security 
clearance activities comes from the fees that are paid by the 
agencies that are seeking the clearances. So if there is a lot 
of volume, there is a lot of money. It varies with the amount 
of work.
    Senator Akaka. Director Springer, I commend the plan's 
efforts to monitor how quickly agencies are supplying the 
required records to complete the clearance investigation. I 
know that investigators are sometimes hindered in their work 
because of problems obtaining State and local records. However, 
I know my own State of Hawaii has what is called the Criminal 
Justice Information System that allows all Islands to hook into 
a single reporting system, which, in turn, can be used by 
Federal law enforcement, as well.
    Can you describe the State and local access problems and 
share with us whether you believe legislative action is needed 
to facilitate such access?
    Ms. Springer. I am going to ask Associate Director 
Dillaman, who is responsible for the program, to answer that, 
Senator.
    Ms. Dillaman. Senator, we have a team dedicated to the 
research into a number of different State and local record 
systems to see the best way to use technology or access to get 
the information we need. We do, in fact, with our duty station 
in Hawaii, use your centralized criminal history record system. 
That is true in many States.
    At the State level, we are looking at Bureau of Vital 
Statistics records, possibly National Guard records, other 
records at that level, and quite frankly, 50 States have 50 
different ways of keeping their records. So the liaison has to 
be State-specific to identify how the records are kept, what 
the most efficient way to get access to those records would be, 
and we have to monitor the timeliness for each State.
    There are 26,000 local law enforcement agencies and it is 
the same exact issue with each and every one of them. So doing 
adequate research to determine whether or not a State record 
system suffices in lieu of doing local checks, or, in fact, the 
reporting system within a State is such that it doesn't, that 
we have to go to each and every local law enforcement agency 
where we know the individual has activity. And so that is a 
dedicated team effort on our part.
    Senator Akaka. Thank you. Director Springer, the plan's 
staffing distribution charts project the total staff level of 
9,000 by October 1, 2006, with a mix of 1,800 Federal employees 
and 7,200 contract staff. Projected staff levels 3 years later, 
October 1, 2009, would still be at 9,000, but with 500 fewer 
Federal workers. Can you explain why the mix of Federal 
employees to contract workers will change?
    Ms. Dillaman. Well, the primary reason for the change is 
going to be related to normal decrement, normal termination, 
retirements, for example, that we expect will occur and then 
rebalancing will just happen as we have to go to contractors to 
some degree to compensate for that.
    Let me just say that I have spent a fair amount of time out 
in the field at field offices, at several of our field offices, 
visiting with the staff, legacy DSS staff, OPM staff, 
contractors, just about every type, every level, supervisors 
down to investigators, just about every level, hundreds of 
people who are working on this effort, and over the past few 
weeks, I have had a chance to go out and visit them. And what I 
can tell you, because I open up the microphone and say, just 
ask me any questions you want to, the questions range from, 
``We would like to have an ice machine in our office,'' to 
``Can you get us a certain type of technology?''
    But I can tell you that the questions that we are getting 
don't indicate a level of dissatisfaction or a lack of support, 
but rather a real sense of commitment and can we get even some 
better tools and understanding of the objectives. I am not 
getting questions about the requirements that we are putting on 
the ability to meet the goals.
    So I think that whether it is the contractor community or 
whether it is an employee, a legacy employee or an OPM 
employee, that everyone is committed and working together very 
well. That mix will just evolve as we have changes in 
retirement, normal changes that we project over these next 
couple of years.
    Senator Akaka. Thank you. My time has expired.
    Senator Voinovich. I need to recess this hearing to go and 
vote. I have additional questions, and I am sure Senator Akaka 
has some as well. I apologize to you, but that is the way 
things are around this place.When I was governor and mayor, I 
controlled the schedule. Thank you. [Laughter.]
    [Recess.]
    Senator Voinovich. The Subcommittee will come to order and 
reconvene. I apologize for the delay. I hope you had a chance 
to talk back and forth.
    Mr. Stewart, in your statement, you raised a couple of 
questions in regard to the plan that you observed. Overall, you 
thought it was a good, comprehensive plan but you did raise a 
couple of issues with the plan. I would be interested in the 
response to those questions that you raised, either by Ms. 
Springer or by Mr. Johnson.
    Mr. Stewart. The couple I mentioned----
    Senator Voinovich. If you could repeat them again. I want 
to give them a chance to respond to the fact that you raised 
these issues.
    Mr. Stewart. Yes. There are a couple of issues. One centers 
on quality, and Mr. Chairman, I want you to know that I didn't 
mention it, but Mr. Johnson and the OMB staff and the GAO staff 
have been meeting. We had a meeting right after the hearing in 
June. Mr. Johnson invited us over in July and then we met again 
in October. We have been talking and we have made this comment 
to OMB, so this is not a surprise.
    When we were briefed on the plan, the one concern we had 
was around quality. There are a lot of metrics, as I noted, in 
the plan, really good metrics to measure things, but we are 
concerned about the quality of the process. We know that the 
government has hired a lot of new investigators and will 
continue to hire new investigators. It is important to make 
sure that everybody is trained and on the same page, familiar 
with the government standards, etc., and the plan mentions that 
there is a training program.
    But beyond that, we don't see a mechanism in the plan, a 
metric, I guess, for measuring quality beyond the metric of 
rework or the percentage of investigations that are returned 
because they are incomplete.
    Senator Voinovich. So it is the quality of the work that is 
done which reflects the quality of the people that do the job. 
Your concern is: Is OPM going to have the training necessary 
for their employees to be able to do a quality job?
    Mr. Stewart. I couldn't have said it any better, sir, and I 
would just add to that in addition to the training, will there 
be something other than rework that OMB or OPM will be looking 
at to make sure that quality is built into the process?
    Senator Voinovich. Ms. Springer.
    Ms. Springer. Yes. Thank you for restating that question. 
With respect to training, I will say a few things. Let me make 
a couple of comments about training and quality control, if you 
will, and then maybe I will ask Ms. Dillaman if she wants to 
supplement.
    There is an OPM team that is dedicated to training new 
agents. The first year, in particular, as I earlier mentioned, 
is where that steepest learning curve is.
    Senator Voinovich. Can I ask you something?
    Ms. Springer. Yes.
    Senator Voinovich. How much of this work is going to be 
done in OPM and how much of it is sent out to contractors?
    Ms. Springer. Do you mean the training work itself?
    Senator Voinovich. You are going to farm out some of this 
work, correct?
    Ms. Springer. The investigative work.
    Senator Voinovich. So the contractors are going to do the 
investigation work. OPM is not in the business of doing the 
investigative work. Do you have people that do investigative 
work?
    Ms. Springer. Yes, we do.
    Senator Voinovich. About what percentageof the workload 
will they be doing versus the private sector group?
    Ms. Springer. It is about a one-quarter/three-quarter 
split, three-quarter contractor, one-quarter OPM.
    Senator Voinovich. OK. What is the reason for the one-third 
that are in-house? Does the work that they are doing require 
highly-trained people?
    Ms. Springer. Yes.
    Senator Voinovich. The other work that you are farming out 
may not require that level of training?
    Ms. Springer. I am not sure it is so much that we had to 
supplement quickly and with flexibility the existing staff that 
we had and that we inherited, and the fastest way to do that 
was with contractors. I don't think that there is one 
particular type of work being done solely by contractors and 
another type that is done solely----
    Senator Voinovich. So you do not distinguish the work that 
is being sent out or kept in-house on the level of 
investigation that has to be done?
    Ms. Dillaman. Sir, if I may address that, when we inherited 
the Federal agents from the Defense Security Service, both 
groups, the Federal and the contractor group, were dedicated to 
all levels of background investigations. Now, the long-range 
plan is to segregate the work so that, for example, the Federal 
agents are clearing the contractors and the contractors aren't 
clearing themselves and that the Federal agents would serve as 
a backbone, where the more sensitive investigations, higher-
priority investigations, or those investigations that may 
contain up-front known issues would be handled by the Federal 
team. But for the remaining Federal capacity, they would be 
working side-by-side with the contractors doing the same work.
    Senator Voinovich. I would like to get an idea of what the 
cost is for the in-house employees versus the contractors. 
Additionally, I would also like to see the level of the quality 
of the work.
    I suspect that you pay more for the people that are in-
house, but the issue then becomes do you get a better quality 
worker? My understanding is that a lot of the in-house 
employees are part-time workers. Down the road, I would really 
like to get a feel for just how this is working out and what 
the trade-offs are. Of the third that are doing it in-house, 
how many of them are going to be around for a while and how 
many of them would be close to retirement.
    I would like to know, what is your succession plan? What is 
your long-range plan?
    Ms. Springer. We can get that for you.
    Senator Voinovich. Mr. Stewart, your concern is the 
training of the people that are in-house, as well as the 
training of the contractors. Specifically, the supervision of 
the work that is being farmed out to make sure that the quality 
of the work that is being done is what it should be.
    Mr. Stewart. Yes, sir. And in fact, in our 1999 report, 
which is a little old now, we made this recommendation 6 or 7 
years ago. We thought to ensure quality that there should be 
some periodic sampling of case files to see how well the 
investigators had satisfied the standards. We actually did 
that, Mr. Chairman, and it was tedious. With a team of six or 
seven people, the job took a year and a couple of months. But, 
we went through actual case files and sampled to see how well 
things were done. It is that type of quality assurance that we 
were looking for in the plan that we didn't see.
    Senator Voinovich. It makes sense to me that if you are 
going to farm out three-quarters of your work to the private 
sector, that you have a process in place to monitor the 
performance of the private sector, to periodically ascertain 
the quality of the work that is being done. Ms. Springer, are 
you going to implement this review process?
    Ms. Springer. We have some of that now, and if you would 
like to describe just briefly what we are----
    Ms. Dillaman. Certainly. And by no means, the returns from 
agencies, that is not the only metric of quality. In our 
structure, we have built a very robust quality assurance 
program for the contractors. I have a branch dedicated to 
contract management and quality oversight.
    Every investigation conducted by a contractor goes through 
a review process. The terms of the contracts require the 
companies themselves to have a quality assurance program that 
we review. Over and above that, I have a dedicated Federal team 
that does sampling of the contractor-conducted cases, both to 
confirm that the contractor has a good quality assurance 
program. Rigid metrics are kept down to the agent level on 
those.
    Parallel with that, I have the same quality assurance 
program with the Federal agents that conduct investigations. So 
there are multiple tiers of quality review with performance 
statistics at the company and individual level.
    Senator Voinovich. Mr. Stewart, I would like you to sit 
down with Ms. Dillaman----
    Mr. Stewart. Yes.
    Senator Voinovich [continuing]. And talk about this and 
maybe get back to me in the next couple of weeks. I would like 
to know whether or not what OPM has in place is what you have 
in mind.
    Mr. Stewart. We appreciate Ms. Dillaman's contribution 
here. I was not aware of that entire structure. I am aware that 
the contractors have their own quality assurance program. That 
concerns us a little bit, because that means that they get to 
judge themselves, and that has been an issue for a while and we 
have made a couple of recommendations back 7 or 8 years on that 
point, long before Ms. Springer and Mr. Johnson's time on this 
issue. I think Ms. Dillaman had been around then, I am not 
sure. But we will get together and get more details.
    In fact, Mr. Chairman, at your request, we have underway an 
engagement looking at the processing of top secret clearances. 
So we are going to get into some of these issues as we proceed 
with that work and we are going to report back to you formally 
in a report on what we find.
    Senator Voinovich. OK. Thank you.
    Mr. Stewart. The other issue, the other concern that we had 
was on the projection of workload requirements. Mr. Chairman, 
if there is one thing that really concerns us, it is the 
workload requirement. You may recall when I was here in June, I 
testified that DOD had not done a good job of estimating its 
workload requirements and I gave you a few statistics, and I 
will repeat those. In fiscal year 2001, DOD over-estimated its 
workload by 150,000 cases. In 2002, it under-estimated its 
workload by 135,000 cases. And in 2003, it under-estimated its 
workload by 100,000 cases.
    We have talked to contractors recently, Mr. Chairman, and 
the contractors tell us that their biggest concern in 
conducting this work is that they don't know what the workload 
requirements are. They don't know what is coming at them. They 
don't know how to prepare for what is down the road. One 
contractor told us it cost them almost $80,000 to hire, train, 
and develop an investigator. They told us that they were trying 
to change the paradigm of hiring retired Federal workers and 
part-time staff, and they were actually active on campus, 
recruiting people with degrees in criminal justice and trying 
to build a younger, more committed workforce. That is 
expensive. They want to do it. They are committed to that. But 
they don't know what the requirements are.
    So we think it is critical that the agencies do a good job 
of--not a good job, but an accurate job of projecting their 
workloads. The plan speaks to that. Our concern is that there 
are no interim milestones. There are no target completion dates 
for when the agencies are supposed to do this, and we know from 
experience with DOD, if you don't force a certain date, it is 
not going to happen. It hasn't happened in 20 years and it 
probably won't happen until their feet are really held to the 
fire.
    Senator Voinovich. So you are saying that the customers of 
OPM need to do a better job of projecting their caseload. 
Additionally, the plan needs more milestones to ensure that 
this problem can be fixed.
    Mr. Stewart. Absolutely, sir. I mean, if I am OPM, I say to 
DOD, you know generally what your workload is. What initiatives 
do you have in place? With contract employees, of the two 
million security clearances that DOD is responsible for, about 
a third of those are for industry personnel, contractors, 
almost 700,000. When a government contracting officer lets a 
contract, that contracting officer knows, or has a pretty good 
feel for, which jobs are going to require clearances. There 
should be some way that DOD can roll that up and say, these are 
how many contracts we are going to let. This is how many people 
we need to clear----
    Senator Voinovich. So that really gets back to OMB making 
sure that the agencies that are the customers of OPM come up 
with accurate numbers. It makes sense to guarantee the 
contractors that they will have X-number of work for 2 or 3 
years. In turn they will hire a better quality of individual 
and train them.
    We have a 5- or 6-year highway fund. Before we went to 
ISTEA and T-21, Congress would appropriate money annually. The 
contractors around the country never knew whether the money was 
coming or wasn't coming, so they weren't able to plan their 
workforce, the equipment they would need, and so forth. This 
new system has really put them in a position where they can do 
a better job of managing their workforce and their capital 
investment. In my opinion, we are getting a much better 
turnaround. We are getting more in return from the money that 
we are spending. So it would be interesting to see if something 
like that could be done.
    For my next question, there are five reports that OPM has 
laid out, clearance granting, agency reporting, and agencies 
with delegated investigative authority require OPM to obtain 
performance information from other Federal agencies. What steps 
are you taking to work with the Federal community to make sure 
you receive the information in a timely manner, and also, how 
will you verify the authenticity of the performance 
information?
    Ms. Springer. Well, one factor there--I will just start off 
and maybe Mr. Johnson will want to comment--is that OMB now 
approves delegations related to--for these investigative 
agencies. In order for them to get their continued delegation, 
it is going to be predicated on their ability to provide 
accurate data and timely data to OPM for us to be doing this 
kind of tracking of how they are doing. So there is a little 
bit of leverage that we have with respect to that. The agencies 
are going to want to give us timely and accurate information.
    I don't know if you want to comment further on that.
    Mr. Johnson. On the information, there are different kinds 
of information that we need that we track. How long it took for 
somebody to--once they handed a form to a prospective 
employee--from that date to when they submitted it accurately 
to OPM. There is a date on the form. They know when they get 
it. So that is automatic. That comes with it.
    The error rate, they get it--so Ms. Dillaman determines the 
level of errors. So we don't have a problem in getting that 
information.
    I think we do require them to report to us when they 
complete the adjudication, so there is a requirement that they 
are obligated to report to them, and we don't get that 
information automatically. We are relying on them to report 
that to us and report it accurately to us.
    We have not talked about how we build a quality control 
process into that to make sure that they are reporting that 
information accurately. Right now, we need to set up a system 
where it will be what it is, and then the next level of 
sophistication is to make sure there is quality control to make 
sure it is accurate.
    A lot of the information comes to us automatically. It is 
really the adjudication completion date that is the one thing 
that we rely on them to report accurately to us.
    Senator Voinovich. In other words, the investigation is 
done. You do it for the agencies. They look at the 
investigation and they do the adjudication on whether or not 
the individual is qualified to come to work for the agency?
    Ms. Dillaman. Exactly, and the clearance will be reported 
in the central clearance record system, so that, too, gives us 
an indicator of when the action actually took place.
    Senator Voinovich. For example, if you are hiring somebody 
for the State Department, when do they go on the payroll, after 
the adjudication is done?
    Mr. Johnson. Well, Ms. Dillaman and I were just talking 
about this during the break. Some agencies grant interim 
clearances, and so we are talking about getting information 
from agencies and understanding who uses interim clearances, 
who does not. That will have a bearing on whether Ms. Dillaman 
should be rushing the non-interim clearance people their 
information, because they can't go to work until they are 
granted the full clearance. So we need to understand that 
better.
    But the short answer to your question is, it depends on the 
agency. It depends on whether they grant the interim 
clearance----
    Senator Voinovich. It seems to me you are going to have to 
figure out a priority system. I think we are losing very 
qualified individuals because it takes too long to get their 
clearance.
    Mr. Johnson. You have a priority-setting clearance, I mean 
process, don't you?
    Ms. Springer. Yes. We actually charge for a quicker turn-
around. There is a protocol where if you pay a premium for 
special cases, where there is something that needs to get 
through really fast. I am not as familiar with it, but there is 
some way if there is a particularly urgent situation.
    Senator Voinovich. Well, if you start getting into the 
nitty-gritty of it, it is more complicated than you think. But, 
the priorities are important, particularly, when we are going 
to be competing for qualified individuals. We have asked GAO to 
do a report on the need for scientists and engineers in various 
departments throughout the Federal Government. Anything that 
stands in the way of bringing these people on board puts the 
Federal Government in a non-competitive position.
    Mr. Johnson, reciprocity is a vital component of the 
National Intelligence Reform Act and the President's Executive 
Order. In order to address the issue, you established the 
reciprocity working group. Can you discuss the structure of 
this working group, including the mission of the group and the 
Federal agencies that belong to it? In addition, what, if any, 
enforcement authorities does the working group have to ensure 
that agencies are abiding by the reciprocity standards of the 
Intelligence Reform Act and the Executive Order?
    I hired somebody to come in and work in my office that had 
certain clearances from the State Department and it took a 
while for her to--when she came on board with me, it was the 
same kind of clearance and it took a while before all that 
information got sent over. If it wasn't for the fact that I 
think she pulled some strings, because she knew some people 
over there and was able to jump-start the thing, it would have 
been quite some time before the clearances went through.
    So how are you going to deal with that, because that is a 
problem. Some of these agencies, as you know from the testimony 
we had, are kind of----
    Mr. Johnson. Protective of their----
    Senator Voinovich. You have got it. Yes. How are you going 
to work on that?
    Mr. Johnson. The committee we formed is not an enforcement 
committee. They were to define what the reciprocity issues are 
and what has to be done, what they recommend doing to address 
those issues. So they have laid out what the exceptions for 
reciprocity should be, and their proposal is that it is when 
the current clearance that someone has is an interim clearance, 
or is the result of a waiver, that has been granted or it is a 
clearance--or the new clearance calls for a polygraph and the 
old one didn't--that would allow additional work to be done. 
The new clearance prohibits foreign-born family members, 
whereas the old clearance may not have. Or if somebody has an 
exception, if they want to seek other than those, they have to 
come and get Josh Bolton's or my approval.
    So it is very specific about when additional investigative 
work is allowed. If none of those situations occurs, you accept 
without further investigative work and without further 
adjudication the clearance that the person has if it is for the 
same level.
    Senator Voinovich. Is there a secure website where agencies 
can view a person's clearance status?
    Ms. Dillaman. There is a database, sir, that will be in 
place December 15, that OPM is sponsoring, where all the 
clearances will be residing in one central record system. Each 
agency will have access to to confirm the person's current 
clearance status with this system.
    Senator Voinovich. And then the point is that there are 
some indicators in place that say when an agency could require, 
as Mr. Johnson has said, more information and when it wouldn't 
be satisfactory in terms of whatever it is they wanted?
    Ms. Dillaman. Yes, sir.
    Mr. Johnson. So if they come to Ms. Dillaman for more 
investigative work, she can say, well, this person--this is an 
improper request, so there is a recordation there, possibly. 
Then that is one piece of feedback that they are not granting 
reciprocity. Another one is where the contractor or the 
employee believes they have a clearance and they are not being 
granted reciprocity or it is not being recognized by the new 
employer. We are going to create a mechanism where they can 
communicate that to us, as well, so we will have some data 
gathering about where reciprocity is not being granted.
    Senator Voinovich. Will you get reports regarding the 
agencies' request for information to determine whether some of 
these agencies are getting a little bit fastidious?
    Mr. Johnson. Yes. You asked about enforcement, I mean, how 
do we--what bad things can we do to agencies that don't 
recognize other people, or clearances granted by other 
agencies.
    Senator Voinovich. Yes.
    Mr. Johnson. What I mentioned in my opening remarks, I 
think is relevant here. The attitude and the ``can-do'' mindset 
of the agencies involved is really great. Everybody understands 
that we can better train all our adjudicators. We can do the 
work more consistently and faster and they are going to do 
their part. Just in general, I don't think we have a problem 
getting people's attention. It is not the Bush Administration, 
just in general. If you are real clear, about which agencies 
are not granting reciprocity and what individuals are above the 
standard or below the standard for reciprocity, then some 
appropriate, important person calls some other appropriate 
person and says, you have got to honor reciprocity.
    So there has been an Executive Order since 1997 that says 
there shall be reciprocity. Nobody has held an agency 
accountable for abiding by that Executive Order. You need 
performance measures and then you need a mechanism to hold 
agencies accountable for complying with the rules.
    Senator Voinovich. It is important to make sure that we 
have buy in from the top. The message needs to be that we want 
to get the job done, we want to make sure that we are thorough, 
but we don't want to put ourselves in a position where we are 
slowing the process down.
    Mr. Johnson. Yes. That is why it has been important to have 
the representative from the DNI there who agrees with all the 
things that have been decided about reciprocity and they are 
fully prepared to abide by those rules.
    So one of the things we have talked about also is the 
concern about how consistent or inconsistent the quality of 
adjudication might be. Some agencies have said, well, I am not 
personally satisfied with the quality of the training my 
adjudicators get. And someone would say, well, mine are great, 
and medium, so we were talking about how we bring more 
consistency to the quality of adjudication, not the 
investigative work, but the adjudication, so there is an effort 
underway to look at how we could standardize the training. DOD 
has most of the adjudicators in the Federal Government, so one 
thought is maybe we should make that a good training program. 
Maybe we use their training program as the sort of benchmark 
for how to train all adjudicators.
    Senator Voinovich. Mr. Johnson, I would like you to know 
that I am excited about what you are doing. I really believe 
that if you carry out what you have planned, then I think that 
we can get this off the high-risk list. The only question I 
have is why does the Executive Order expire on July 1, 2006?
    Mr. Johnson. Let me talk about that. The thought was, we 
will revisit, then, who ought to be the prime mover. Right now, 
there is some thought that the DNI ought to be the person that 
is ensuring that the security clearance process works. In July 
or June of this past year, the DNI was trying to get office 
supplies and so forth, so they were not prepared to do that, so 
they said, let us make it OMB, because we are prepared to do it 
and we know how to do it, so let us do that and then we will 
review the bidding this next year. I don't know whether the 
decision will be that we continue to be the oversight or 
whether it comes to DNI. But, we know the thing will not be 
where we want it to be by June, but we will pick somebody else. 
We will renew the Executive Order and go from there.
    Senator Voinovich. I would feel a lot more comfortable if 
you stayed with it.
    Mr. Johnson. Thank you, although, sir, the three times we 
have met, the oversight committee, we have a little vote for 
who the most valuable member of the meeting is. I have never 
won that award. [Laughter.]
    But Ms. Dillaman has won it each time, so if there is a 
treasure in this group, it is Ms. Dillaman.
    Senator Voinovich. Well, you had better be concerned about 
Negroponte stealing her. [Laughter.]
    Ms. Springer. It is not going to happen. [Laughter.]
    Senator Voinovich. Thank you very much, and again, I 
apologize to all of you for having to leave and vote. I am 
thrilled about where we are with this process. Mr. Stewart, I 
encourage GAO to continue working with OMB and OPM. Again, I 
want you to know, if there is anything I can do or this 
Subcommittee can do to help make this possible, let me know. I 
want to do it. Thank you.
    The meeting is adjourned.
    [Whereupon, at 4:32 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4930.001

[GRAPHIC] [TIFF OMITTED] T4930.002

[GRAPHIC] [TIFF OMITTED] T4930.003

[GRAPHIC] [TIFF OMITTED] T4930.004

[GRAPHIC] [TIFF OMITTED] T4930.005

[GRAPHIC] [TIFF OMITTED] T4930.006

[GRAPHIC] [TIFF OMITTED] T4930.007

[GRAPHIC] [TIFF OMITTED] T4930.008

[GRAPHIC] [TIFF OMITTED] T4930.009

[GRAPHIC] [TIFF OMITTED] T4930.010

[GRAPHIC] [TIFF OMITTED] T4930.011

[GRAPHIC] [TIFF OMITTED] T4930.053

[GRAPHIC] [TIFF OMITTED] T4930.054

[GRAPHIC] [TIFF OMITTED] T4930.055

[GRAPHIC] [TIFF OMITTED] T4930.056

[GRAPHIC] [TIFF OMITTED] T4930.057

[GRAPHIC] [TIFF OMITTED] T4930.058

[GRAPHIC] [TIFF OMITTED] T4930.059

[GRAPHIC] [TIFF OMITTED] T4930.060

[GRAPHIC] [TIFF OMITTED] T4930.061

[GRAPHIC] [TIFF OMITTED] T4930.062

[GRAPHIC] [TIFF OMITTED] T4930.063

[GRAPHIC] [TIFF OMITTED] T4930.064

[GRAPHIC] [TIFF OMITTED] T4930.065

[GRAPHIC] [TIFF OMITTED] T4930.066

[GRAPHIC] [TIFF OMITTED] T4930.067

[GRAPHIC] [TIFF OMITTED] T4930.068

[GRAPHIC] [TIFF OMITTED] T4930.069

[GRAPHIC] [TIFF OMITTED] T4930.070

[GRAPHIC] [TIFF OMITTED] T4930.071

[GRAPHIC] [TIFF OMITTED] T4930.072

[GRAPHIC] [TIFF OMITTED] T4930.073

[GRAPHIC] [TIFF OMITTED] T4930.074

[GRAPHIC] [TIFF OMITTED] T4930.075

[GRAPHIC] [TIFF OMITTED] T4930.076

[GRAPHIC] [TIFF OMITTED] T4930.077

[GRAPHIC] [TIFF OMITTED] T4930.078

[GRAPHIC] [TIFF OMITTED] T4930.079

[GRAPHIC] [TIFF OMITTED] T4930.080

[GRAPHIC] [TIFF OMITTED] T4930.081

[GRAPHIC] [TIFF OMITTED] T4930.082

[GRAPHIC] [TIFF OMITTED] T4930.012

[GRAPHIC] [TIFF OMITTED] T4930.013

[GRAPHIC] [TIFF OMITTED] T4930.014

[GRAPHIC] [TIFF OMITTED] T4930.015

[GRAPHIC] [TIFF OMITTED] T4930.016

[GRAPHIC] [TIFF OMITTED] T4930.017

[GRAPHIC] [TIFF OMITTED] T4930.018

[GRAPHIC] [TIFF OMITTED] T4930.019

[GRAPHIC] [TIFF OMITTED] T4930.020

[GRAPHIC] [TIFF OMITTED] T4930.021

[GRAPHIC] [TIFF OMITTED] T4930.022

[GRAPHIC] [TIFF OMITTED] T4930.023

[GRAPHIC] [TIFF OMITTED] T4930.024

[GRAPHIC] [TIFF OMITTED] T4930.025

[GRAPHIC] [TIFF OMITTED] T4930.026

[GRAPHIC] [TIFF OMITTED] T4930.027

[GRAPHIC] [TIFF OMITTED] T4930.028

[GRAPHIC] [TIFF OMITTED] T4930.029

[GRAPHIC] [TIFF OMITTED] T4930.030

[GRAPHIC] [TIFF OMITTED] T4930.031

[GRAPHIC] [TIFF OMITTED] T4930.032

[GRAPHIC] [TIFF OMITTED] T4930.033

[GRAPHIC] [TIFF OMITTED] T4930.034

[GRAPHIC] [TIFF OMITTED] T4930.035

[GRAPHIC] [TIFF OMITTED] T4930.036

[GRAPHIC] [TIFF OMITTED] T4930.037

[GRAPHIC] [TIFF OMITTED] T4930.038

[GRAPHIC] [TIFF OMITTED] T4930.039

[GRAPHIC] [TIFF OMITTED] T4930.040

[GRAPHIC] [TIFF OMITTED] T4930.041

[GRAPHIC] [TIFF OMITTED] T4930.042

[GRAPHIC] [TIFF OMITTED] T4930.043

[GRAPHIC] [TIFF OMITTED] T4930.044

[GRAPHIC] [TIFF OMITTED] T4930.045

[GRAPHIC] [TIFF OMITTED] T4930.046

[GRAPHIC] [TIFF OMITTED] T4930.047

[GRAPHIC] [TIFF OMITTED] T4930.048

[GRAPHIC] [TIFF OMITTED] T4930.049

[GRAPHIC] [TIFF OMITTED] T4930.050

[GRAPHIC] [TIFF OMITTED] T4930.051

[GRAPHIC] [TIFF OMITTED] T4930.052

                                 <all>

</pre></body></html>
